1a
APPENDIX—LIST OF AMICI
Dr. Amanda J. Barnier
Fellow, Academy of Social Sciences in Australia,
Fellow, Society for Clinical and Experimental
Hypnosis, Professor of Cognitive Science,
Macquarie University, Sydney, Australia
Dr. Robert F. Belli
Professor Emeritus of Psychology,
University of Nebraska—Lincoln
Dr. Holly Bowen
Assistant Professor, Department of Psychology,
Southern Methodist University
Dr. Maggie Bruck
Full Professor (retired),
Johns Hopkins School of Medicine
Dr. Antonio Capafons
Professor of Psychology,
Director of the Clinic of Psychology,
University of Valencia (Spain),
President of the Association for the Advancement of
Experimental and Applied Hypnosis
Dr. Mitchell Eisen
Professor of Psychology and
Director of Forensic Psychology,
California State University, Los Angeles
Dr. Allan R. Harkness
Professor of Psychology,
The University of Tulsa

2a
Dr. Saul Kassin
Distinguished Professor,
John Jay College of Criminal Justice,
City University of New York
Dr. Irving Kirsch
Associate Director, Program in Placebo Studies and
the Therapeutic Encounter,
Harvard Medical School,
Professor Emeritus of Psychology,
University of Connecticut, and University of Hull
Dr. Elisa Krackow
Associate Professor, Department of Psychology,
West Virginia University
Dr. Jean-Roch Laurence
Professor Emeritus, Department of Psychology,
Concordia University
Dr. D. Stephen Lindsay
Professor of Psychology,
University of Victoria
Dr. Elizabeth F. Loftus
Distinguished Professor: Psychological Science;
Criminology, Law & Society; Cognitive Sciences;
and School of Law,
University of California, Irvine
Dr. Reed Maxwell
Assistant Professor, Department of Psychiatry,
University of Kansas Medical Center
Dr. Kevin M. McConkey, AM, FASSA,
Emeritus Professor of Psychology,
University of New South Wales, Sydney, Australia

3a
Dr. Richard J. McNally
Professor and Director of Clinical Training,
Department of Psychology,
Harvard University
Prof. Dr. Harald Merckelbach
Professor of Legal Psychology, Member of the Royal
Netherlands Academy of Arts and Sciences, Member
of Royal Holland Society of Sciences and Humanities,
Member of the Criminal Cases Review Commission of
the Dutch Supreme Court, Dean of the Faculty of
Psychology and Neuroscience,
Maastricht University, The Netherlands
Dr. Bryan Myers
Professor, Department of Psychology,
University of North Carolina, Wilmington
Dr. Jeffrey Neuschatz
Distinguished Professor, Psychology Department,
University of Alabama in Huntsville
Dr. William O’Donohue
Professor, Co-Director, Victims of Crime Treatment
Center, and Director, Psychological Services Center,
Department of Psychology,
University of Nevada, Reno
Prof. Dr. Henry Otgaar
Professor of Legal Psychology Criminological and
Experimental Legal Psychology Lab,
KU Leuven, Maastricht University
Dr. Steven Penrod
Distinguished Professor,
John Jay College of Criminal Justice,
City University of New York

4a
Dr. Vince Polito
Senior Research Fellow,
Department of Cognitive Science,
Macquarie University, Australia
Dr. Valerie F. Reyna
Lois and Melvin Tukman Professor,
Director, Human Neuroscience Institute, and
Co-Director, Center for Behavioral Economics
and Decision Research,
Cornell University
Dr. Henry L. Roediger, III
James S. McDonnell Distinguished University
Professor, Department of Psychological and
Brain Sciences,
Washington University
Dr. Daniel L. Schacter
William R. Kenan, Jr. Professor of Psychology,
Department of Psychology,
Harvard University
Dr. Deryn Strange
Professor, John Jay College of Criminal Justice,
City University of New York
Dr. Gary L. Wells
Professor of Psychology, Distinguished Professor
of Liberal Arts and Sciences, and
Wendy and Mark Stavish Chair in Social Sciences,
Iowa State University

